TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Significant Challenges Exist in Determining
                 Whether Taxpayers With Schedule C Losses
                          Are Engaged in Tax Abuse



                                       September 7, 2007

                              Reference Number: 2007-30-173




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 7, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report –(Audit # 200630039)

 This report presents the results of our review to determine what actions the Internal Revenue
 Service (IRS) is taking to address noncompliant, high-income1 Small Business/Self-Employed
 (SB/SE) Division taxpayers who claim business losses using a U.S. Individual Income Tax
 Return (Form 1040) Profit or Loss From Business (Schedule C) for activities considered to be
 not-for-profit. This audit was part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2007 audit plan.

 Impact on the Taxpayer
 In general, if a taxpayer has hobby income and expenses, the expense deduction should be
 limited to the hobby income amount. About 1.5 million taxpayers, many with significant income
 from other sources, filed Form 1040 Schedules C showing no profits, only losses, over
 consecutive Tax Years 2002 – 2005 (4 years); 73 percent of these taxpayers were assisted by tax
 practitioners. By claiming these losses to reduce their taxable incomes, about 1.2 million of the
 1.5 million taxpayers potentially2 avoided paying $2.8 billion in taxes in Tax Year 2005.
 Changes are needed to prevent taxpayers from continually deducting losses in potentially
 not-for-profit activities to reduce their tax liabilities.




 1
  We categorized taxpayers with total income sources of $100,000 or greater to be high-income taxpayers.
 2
  The term potentially is used because an examination of books and records is necessary to determine whether there
 was tax avoidance or abuse.
                   Significant Challenges Exist in Determining Whether Taxpayers
                         With Schedule C Losses Are Engaged in Tax Abuse




Synopsis
According to IRS estimates, incorrect deductions of hobby expenses account for a portion of the
overstated adjustments, deductions, exemptions, and credits that result in about $30 billion per
year in unpaid taxes. The IRS faces considerable challenges in administrating the tax law for
taxpayers who take Schedule C losses year after year for potentially not-for-profit activities.
Several recent efforts demonstrate these challenges. In an effort to change noncompliant
taxpayer behavior, the IRS sent letters to taxpayers with potentially tax-abusive, home-based
businesses as an alternate treatment to save audit resources. However, the taxpayer response rate
was low, and IRS researchers concluded that the use of letters would not necessarily be
productive as a tool to induce self-correction. The IRS also conducted correspondence
examinations.3 However, these examinations did not always deter taxpayers from continuing to
claim hobby losses in succeeding tax years.
Internal Revenue Code (I.R.C.) Section (§) 1834 (Activities not engaged in for profit), also
referred to as the “hobby loss” provision, and related Treasury Regulation § 1.183-15 do not
establish specific criteria for the IRS to use to determine whether a Schedule C loss is a
legitimate business expense without conducting a full examination of an individual’s books and
records. The purpose of the hobby loss provision was to limit the ability of wealthy individuals
with multiple sources of income to apply losses incurred in “side-line” diversions to reduce their
overall tax liabilities. Our analysis showed 332,615 high-income taxpayers received the greatest
benefit by potentially avoiding approximately $1.9 billion in taxes for Tax Year 2005.
The I.R.C. and Treasury Regulation do not require a taxpayer to have a reasonable expectation
of profit; rather, the taxpayer needs just the “objective” of making a profit. I.R.C. § 183 makes it
difficult for the IRS to efficiently administer tax law that ensures taxpayers are not deducting
not-for-profit losses to reduce their taxes on other incomes year after year.

Recommendations
To reduce potential abuse, the Commissioner, SB/SE Division, should provide a copy of this
report to the Department of the Treasury, Office of the Assistant Secretary for Tax Policy, to
consider proposal of legislative changes to I.R.C. § 183. The proposal should include
establishing a clearly defined standard or bright-line rule6 for determining whether an activity is a


3
  Correspondence examinations are conducted through the mail, with the IRS typically asking taxpayers for more
support regarding one or two simple issues on individual income tax returns.
4
  I.R.C. § 183, Pub. L. No. 100–647, § 1001(h) (3), 102 Stat. 3352.
5
  T.D. 7198, 37 FR 13683, July 13, 1972.
6
  A bright-line test is a clear division between what is acceptable and what is not from a legal, accounting, or
regulatory perspective.
                                                                                                                   2
                Significant Challenges Exist in Determining Whether Taxpayers
                      With Schedule C Losses Are Engaged in Tax Abuse



business or a not-for-profit activity. Aside from a legislative remedy, due to the large number of
tax returns with Schedule C losses being prepared by tax practitioners, the Director,
Communications, Liaison, and Disclosure, SB/SE Division, should continue to coordinate with
practitioner organizations to encourage compliance with existing provisions.

Response
The Commissioner, SB/SE Division, agreed with the recommendations. The Director,
Communications, Liaison and Disclosure, SB/SE Division, will coordinate with the Office of
Legislative Affairs to forward a copy of the final report to the Department of the Treasury Office
of Tax Policy and will include key messages and talking points about I.R.C. § 183 tax
obligations as a Fiscal Year 2008 outreach initiative directed to practitioner organizations.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS officials affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                                 3
                      Significant Challenges Exist in Determining Whether Taxpayers
                            With Schedule C Losses Are Engaged in Tax Abuse




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Is Aware That Problems Exist With
          Taxpayers Claiming Schedule C Losses From Not-for-Profit Activities .....Page 3
          The Internal Revenue Code and Treasury Regulations Make It
          Difficult to Determine When a Schedule C Loss Is Related
          to a Business or Hobby .................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Methodology for Determining the Number of Taxpayers
          and Potential Tax Avoided in Tax Year 2005 ..............................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 15
         Significant Challenges Exist in Determining Whether Taxpayers
               With Schedule C Losses Are Engaged in Tax Abuse




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
                    Significant Challenges Exist in Determining Whether Taxpayers
                          With Schedule C Losses Are Engaged in Tax Abuse




                                             Background

The Internal Revenue Code (I.R.C.) generally allows individuals to deduct expenses only when
those expenses are incurred either for the purpose of producing income (I.R.C. Section [§] 212)1
or in a trade or business (I.R.C. § 162).2 In contrast, personal expenses are ordinarily not
deductible. As Supreme Court Justice John Marshall Harlan, II once wrote, “For income tax
purposes Congress has seen fit to regard an individual as having two personalities: one is a
seeker of profit who can deduct the expenses incurred in that search; the other is a creature
satisfying his needs as a human and those of his family but who cannot deduct such consumption
and related expenditures.”3
The first “hobby loss” provision in the I.R.C. was enacted
                                                                  The first “hobby loss”
by the Revenue Act of 1943.4 It was popularly known as
                                                                provision in the I.R.C. was
“the Marshall Field Bill.” Some believed (1) Mr. Field         enacted by the Revenue Act
was operating his liberal newspapers, PM and the                          of 1943.
Chicago Sun, as a sole proprietorship and, (2) because
they were both thought to be losing money at that time,
the Federal Government was in a sense “financing” these publications out of taxes Mr. Field
would otherwise have had to pay. The Act was intended to limit the ability of wealthy
individuals with multiple sources of income to apply losses incurred in “side-line” diversions to
reduce their overall tax liabilities.
The I.R.C. was last modified for this issue in 1988, as I.R.C. § 1835 (Activities not engaged in for
profit). Current I.R.C. § 183 provides a presumption that an activity is engaged in for profit if
the activity is profitable for 3 years of a consecutive 5-year period or 2 years of a consecutive
7-year period for activities that consist of breeding, showing, training, or racing horses. Treasury
Regulation § 1.183-16 sets forth the following nonexclusive list of nine factors to guide courts in
analyzing a taxpayer’s profit objective:
(1) The manner in which the taxpayer carries on the activity.
(2) The expertise of the taxpayer or his (or her) advisers.
(3) The time and effort expended by the taxpayer in carrying on the activity.
(4) The expectation that the assets used in the activity may appreciate in value.


1
  I.R.C. § 212, Pub. L. No. 94–12, § 208(b), 68A Stat. 69.
2
  I.R.C. § 162, Pub. L. No. 108-357, §§ 318(a), (b), §§ 802(b) (2), 118 Stat. 1470, 1568.
3
  Justice Harlan, United States v. Gilmore, 372 U.S. 39 (1963).
4
  Title I, § 129(a), 58 Stat. 48.
5
  I.R.C. § 183, Pub. L. No. 100–647, § 1001(h) (3), 102 Stat. 3352.
6
  T.D. 7198, 37 FR 13683, July 13, 1972.
                                                                                             Page 1
                   Significant Challenges Exist in Determining Whether Taxpayers
                         With Schedule C Losses Are Engaged in Tax Abuse



(5) The success of the taxpayer in carrying on other similar or dissimilar activities.
(6) The taxpayer’s history of income or losses with respect to the activity.
(7) The amount of occasional profits, if any, that are earned.
(8) The financial status of the taxpayer.
(9) The elements of personal pleasure or recreation involved in the activity.
However, the mere fact that the number of factors indicating the lack of a profit objective
exceeds the number indicating the presence of a profit objective (or vice versa) is not conclusive.
This review was performed at the Internal Revenue Service (IRS) National Headquarters in
Washington, D.C., in the Small Business/Self-Employed (SB/SE) Division, the SB/SE Division
Campus7 Compliance Services function in Florence, Kentucky, and the Office of Appeals,
Technical Services, Tax Policy function in Dallas, Texas, during the period October 2006
through June 2007. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




7
 The campuses are data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                   Significant Challenges Exist in Determining Whether Taxpayers
                         With Schedule C Losses Are Engaged in Tax Abuse




                                      Results of Review

The Internal Revenue Service Is Aware That Problems Exist With
Taxpayers Claiming Schedule C Losses From Not-for-Profit Activities
A number of taxpayers who have significant income from other sources reduce their taxable
incomes by reporting losses on a U.S. Individual Income Tax Return (Forms 1040) Profit or Loss
From Business (Schedule C). According to IRS estimates, incorrect deductions of hobby
expenses account for a portion of the overstated adjustments, deductions, exemptions, and credits
that result in about $30 billion per year in unpaid taxes.
The IRS has made several different efforts to administrate the tax law. First, as part of the
SB/SE Division Tax Gap8 - National Research Project Communication Plan, on April 25, 2007,
the IRS issued on its web site (IRS.gov) a Factsheet reminding taxpayers to follow appropriate
guidelines when determining whether an activity is a business or a hobby (an activity not
engaged in for profit). In general, if a taxpayer has hobby income and expenses, the expense
deductions should be limited to the hobby income amount. The Factsheet detailed the nine
factors to be considered when making this determination and the limitations for deducting some
expenses from not-for-profit activities as itemized deductions on Form 1040 Itemized
Deductions (Schedule A). In addition to the general public, the Factsheet’s targeted audience
included practitioner and industry groups.
Second, in 2005, the SB/SE Division Research function performed a research project on
home-based businesses that included a review of Schedule C expenses to identify alternate
treatments of potentially noncompliant behavior that would save audit resources. The Research
function sent letters to taxpayers with potentially tax-abusive, home-based businesses in an
attempt to change their potentially noncompliant tax behavior. Although some taxpayers did file
amended returns, the overall response rate was low, and the SB/SE Research function concluded
that the use of letters would not necessarily be productive as a tool to induce self-correction by
home-based business participants.
In a third effort, in 2003, the IRS performed limited testing to determine if examinations of tax
returns with Schedule C losses from potentially not-for-profit activities could be accomplished
through correspondence examinations.9 In general, a correspondence examination does not

8
  The tax gap is the difference between the amount of tax that taxpayers should pay for a given year and the amount
that is paid voluntarily and timely. The tax gap represents, in dollar terms, the annual amount of noncompliance with
the tax laws.
9
  Correspondence examinations are conducted through the mail, with the IRS typically asking taxpayers for more
support regarding one or two simple issues on individual income tax returns.
                                                                                                             Page 3
                          Significant Challenges Exist in Determining Whether Taxpayers
                                With Schedule C Losses Are Engaged in Tax Abuse



Second, the law also allows taxpayers to justify a substantial Schedule C loss by claiming a
minimal profit. For example, an activity could be considered a for-profit business if a taxpayer
shows any profit during a 5-year period, even though much larger losses are claimed in the other
taxable years. This allows taxpayers to break the cycle of having continuous years of losses and
gives the appearance of being a for-profit business.
To identify the scope of the problem, we performed an analysis of Tax Year 2005 Form 1040
Schedules C showing no profits, only losses, over consecutive Tax Years 2002 – 2005 (4 years).
We identified a universe of 1,483,246 taxpayers,12 many with significant income from other
sources, that met this criterion; 1,076,796 (73 percent) of these individuals had their tax returns
prepared by tax practitioners. Based on their Tax Year 2005 income levels, 1,203,175 of the
universe of taxpayers potentially13 avoided paying $2.8 billion in income taxes (see Appendix IV
for additional information).
     Figure 1: Tax Year 2005 Taxpayers Who Potentially Avoided Paying Taxes by
        Claiming Schedule C Losses Over Consecutive Tax Years 2002 – 2005

                600,000                                                                               $2,000
                                                                                        $1,856        $1,800
                                                         498,084
                500,000                                                                               $1,600
                400,000        372,476                                                                $1,400
     Taxayers




                                                                                  332,615




                                                                                                                Millions
                                                                                                      $1,200
                300,000                                                                               $1,000
                                                                                                      $800
                200,000                                        $649                                   $600
                                         $339                                                         $400
                100,000
                                                                                                      $200
                    -                                                                                 $0
                              $1 - $49,999            $50,000 -$99,999       $100,000 and higher
                                                Tax Year 2005 Total Income
                                                 Taxpayers      Tax Avoidance

     Source: Our analysis of the Individual Return Transaction File14 for Tax Years 2002 - 2005.




12
   Because of data limitations, we did not determine whether all consecutive losses were for the same activity.
13
   The term potentially is used because an examination of books and records is necessary to determine whether there
was tax avoidance or abuse.
14
   The Individual Return Transaction File contains data transcribed from initial input of the original individual tax
returns during return processing. Subsequent or amended return data are not contained in the File.
                                                                                                             Page 5
                         Significant Challenges Exist in Determining Whether Taxpayers
                               With Schedule C Losses Are Engaged in Tax Abuse



As previously noted, the purpose of the hobby loss provision was to limit the ability of wealthy
individuals with multiple sources of income to apply losses incurred in “side-line” diversions to
reduce their overall tax liabilities. Figure 1 shows 332,615 high-income15 taxpayers received the
greatest benefit by potentially avoiding approximately $1.9 billion in taxes for Tax Year 2005.
We also computed their expense-to-income ratios. Figure 2 shows almost 70,000 of the
high-income taxpayers claimed expenses 5 times greater than their revenues.
        Figure 2: Tax Year 2005 High-Income Taxpayers Claiming Schedule C Losses
                          Over Consecutive Tax Years 2002 – 2005
             140,000                                                                                               $800

                                               $718
             120,000                                                                                               $700


                                                                                                                   $600
             100,000

                                                                                                                   $500
              80,000
 Taxpayers




                                                                                                                          Millions
                                                                                                          $434
                                                                                                                   $400
                                     128,600              $286
              60,000
                                                                                                                   $300

              40,000                                                       $157
                            $164                                                                     69,902        $200
                                                      56,864
                                                                                          $96
              20,000                                                                                               $100
                        30,057                                        29,494
                                                                                    17,698

                 -                                                                                                 $0
                       No Gross    1:1 up to 2:1    2:1 up to 3:1   3:1 up to 4:1   4:1 up to 5:1 5:1 and higher
                       Receipts                    Expenses to Gross Receipts

                                                     Taxpayers          Tax Avoidance

         Source: Our analysis of the Individual Return Transaction File for Tax Years 2002 - 2005.

We also analyzed how close the taxpayers were to making a profit by the fourth year. Figure 3
shows 204,015 high-income taxpayers reported either no gross receipts or expenses that were at
least 2 times higher than their gross receipts, which allowed them to avoid paying potential taxes
of more than $1.1 billion.



15
     We categorized taxpayers with total income sources of $100,000 or greater to be high-income taxpayers.
                                                                                                                    Page 6
                         Significant Challenges Exist in Determining Whether Taxpayers
                               With Schedule C Losses Are Engaged in Tax Abuse



                       Figure 3: Comparison of Expenses to Gross Receipts for
                                Tax Year 2005 High-Income Taxpayers

                      250,000                                                                  $1,200
                                                                               $1,138
                      200,000                                                                  $1,000

                                                                                               $800
          Taxpayers




                                                                                                          Millions
                      150,000                 $718
                                                                                               $600
                      100,000                                           204,015
                                                                                               $400
                                       128,600
                       50,000                                                                  $200

                          -                                                                    $0
                                    1:1 up to 2:1                      All Others
                                        Expenses to Gross Receipts

                                            Taxpayers            Tax Avoidance
          Source: Our analysis of the Individual Return Transaction File for Tax Years 2002 - 2005.

To further determine how well the IRS can actually administrate this provision through
examinations, we analyzed IRS Audit Information Management System16 data and found
73,431 of the 1,483,246 taxpayers have either open or closed examination records for the 4-year
period (2002 - 2005). The closed records resulted in assessments of about $345 million, which is
only 12 percent of the $2.8 billion in potential tax avoidance for Tax Year 2005 alone.17
However, we were unable to determine the issue for which these taxpayers were examined.
Consequently, the taxpayers’ Schedule C losses may not be the reason for the tax assessments.
The challenges to tax administration caused by I.R.C. § 183 can be traced back to the legislative
process. During the legislative process, the original intent of the hobby loss provision evolved
into the existing I.R.C., which does not clearly establish when an activity is a business or a
not-for-profit activity.
In February 1969, the House of Representatives Ways and Means Committee proposed a change
to the hobby loss provision that would disallow the deduction of losses arising from a “business”
that had not been operated with a reasonable expectation of realizing a profit from it. If an
individual carried on an activity with a loss in excess of $25,000 in 3 years out of 5 consecutive


16
   This System traces examination results through final determination of tax liability, including any actions taken by
the IRS Office of Appeals and the Tax Court.
17
   Our calculations were based on 1 year’s tax, while a disallowed hobby loss could be for 3 or more years.
                                                                                                                     Page 7
                  Significant Challenges Exist in Determining Whether Taxpayers
                        With Schedule C Losses Are Engaged in Tax Abuse



years, it would be deemed that (unless shown to the contrary by the taxpayer) the taxpayer was
not operating the activity with a reasonable expectation of realizing a profit from it.
However, the Senate Finance Committee substituted a different hobby loss provision and
recommended the term “profit” be specifically defined to include not only immediate economic
profit but also any reasonably anticipated long-term increase in the value of property. In making
the determination of whether an activity is not engaged in for profit, the Senate Finance
Committee intended that an objective rather than a subjective approach should be used. A
reasonable expectation of profit was not required, and the facts and circumstances would have to
indicate that the taxpayer entered the activity, or continued the activity, with the objective of
making a profit. The Senate Finance Committee recommended the IRS bear the burden for
rebutting this presumption, not the taxpayer as proposed by the House bill.
In addition, the final Treasury Regulation § 1.183-1 (issued in July 1972) did not clearly
establish when an activity is a business or not-for-profit activity. The Treasury Regulation
established nine factors that should be taken into account when determining if an activity is
engaged in for profit. However, the factors are a guide to assist in making the determination;
they do not establish a clear standard.
A study conducted in September 1998 by the Joint Economic Committee18 defined a “good tax”
as:
•    Not costly for either the Federal Government or taxpayers to calculate or administer; on the
     other hand, tax avoidance is difficult and risky.
•    Neutral in its impact on resource allocation decisions, minimizing negative effects on
     economic growth; it does not lead to unproductive economic activity that is tax induced.
•    Fair; people believe the tax burden is equitably distributed among the taxpaying population.
When comparing the criteria for a good tax to what is stated in I.R.C. § 183, we conclude that it
is difficult for the IRS to efficiently and effectively administer this provision. The tax law
cannot be efficiently administrated when examination resources would be required to determine
compliance. Additionally, taxpayers may be abusing the law by taking multiple, consecutive
year losses for expenses that could be for personal use to reduce taxes on other incomes.




18
  Some Underlying Principles of Tax Policy, United States Congress Joint Economic Committee Study,
Richard K. Vedder and Lowell E. Gallaway, Distinguished Professors of Economics, Ohio University,
September 1998.
                                                                                                     Page 8
                    Significant Challenges Exist in Determining Whether Taxpayers
                          With Schedule C Losses Are Engaged in Tax Abuse



Recommendations
Recommendation 1: The Commissioner, SB/SE Division, should provide a copy of this
report to the Department of the Treasury, Office of the Assistant Secretary for Tax Policy, to
consider proposal of legislative changes to I.R.C. § 183. The proposal should include
establishing a clearly defined standard or bright-line rule19 for determining whether an activity is
a business or not-for-profit activity.
         Management’s Response: The Commissioner, SB/SE Division, agreed with the
         recommendation. Upon receipt of the final report, the Director, Communications,
         Liaison, and Disclosure, will coordinate with the Office of Legislative Affairs to forward
         a copy to the Department of the Treasury Office of Tax Policy.
Recommendation 2: Aside from a legislative remedy, due to the large number of tax returns
with Schedule C losses being prepared by tax practitioners, the Director, Communications,
Liaison, and Disclosure, SB/SE Division, should continue to coordinate with practitioner
organizations to encourage compliance with existing provisions.
         Management’s Response: The Commissioner, SB/SE Division, agreed with the
         recommendation, stating that the Division’s education and outreach activities should
         include key messages regarding current provisions of I.R.C. § 183 to further supplement
         the April 2007 Hobby Loss Factsheet. Management will include key messages and
         talking points about I.R.C. § 183 tax obligations as a Fiscal Year 2008 outreach initiative
         directed to practitioner organizations.




19
  A bright-line test is a clear division between what is acceptable and what is not from a legal, accounting, or
regulatory perspective.
                                                                                                               Page 9
                   Significant Challenges Exist in Determining Whether Taxpayers
                         With Schedule C Losses Are Engaged in Tax Abuse



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of the audit was to determine what actions the IRS is taking to address
noncompliant, high-income1 SB/SE Division taxpayers who claim business losses on a
U.S. Individual Income Tax Return (Form 1040) Profit or Loss From Business (Schedule C) for
activities considered to be not-for-profit. Specifically, we determined the methods the IRS uses
to classify tax returns to be selected for examinations and the outreach actions employed to
discourage taxpayers who claim these losses to reduce their tax liabilities. To accomplish the
objective, we:
I.      Contacted the IRS SB/SE Division Campus2 Compliance Services and Examination
        functions to determine if there were any action plans with target dates for implementation
        of methods to classify and examine returns with Schedule C hobby losses.
II.     Determined what outreach methods the IRS has in place or planned to advise taxpayers of
        the rules regarding the use of Schedule C for activities considered to be a hobby.
        A. Reviewed the public IRS web site (IRS.gov) and the SB/SE Division Intranet web site
           for information pertaining to the deduction of Schedule C expenses for not-for-profit
           activities. We also contacted the Stakeholder Liaison Headquarters to determine if
           there are any additional planned outreach initiatives for either individual taxpayers or
           tax preparers for this area.
        B. Obtained the results of the 148 taxpayer cases for the limited testing for Tax
           Years 1998 through 2002 conducted by the IRS beginning in 2003 to determine if tax
           returns with hobby loss issues could be examined by correspondence examination.3
           We analyzed 95 of the cases in which taxpayers agreed and paid the tax assessments,
           to determine if IRS contact with these taxpayers deterred them from filing Schedule C
           losses in the succeeding tax years.




1
  We categorized taxpayers with total income sources of $100,000 or greater to be high-income taxpayers.
2
  The campuses are data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  Correspondence examinations are conducted through the mail, with the IRS typically asking taxpayers for more
support regarding one or two simple issues on individual income tax returns.
                                                                                                         Page 10
                   Significant Challenges Exist in Determining Whether Taxpayers
                         With Schedule C Losses Are Engaged in Tax Abuse



        C. Obtained a computer extract from the Individual Return Transaction File4 for Tax
           Years 2002 – 2005 Form 1040 Schedules C showing no profits, only losses, over the
           4 consecutive Tax Years. The universe of taxpayers, many with significant income
           from other sources, meeting this criterion was 1,483,246.
             1. Analyzed data to obtain statistics about the population, including the amount of
                taxes avoided in Tax Year 2005, by calculating the additional tax that would have
                been owed if the taxpayers had not taken the Schedule C losses.
             2. Determined the number of taxpayers examined during this period using the IRS
                Audit Information Management System.5 The data were verified by matching a
                judgmental sample of 33 taxpayers’ information to the IRS Integrated Data
                Retrieval System.6
III.    To determine the Congressional intent of I.R.C. Section (§) 183,7 we contacted the
        Treasury Inspector General for Tax Administration Office of Chief Counsel and
        conducted additional research to obtain the legislative/regulatory history of I.R.C. § 183
        and Treasury Regulation § 1.183-1.8




4
  The Individual Return Transaction File contains data transcribed from initial input of the original individual tax
returns during return processing. Subsequent or amended return data are not contained in the File.
5
  The system traces examination results through final determination of tax liability, including any actions taken by
the IRS Office of Appeals and the Tax Court.
6
  This is the IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
7
  I.R.C. § 183, Pub. L. No.100–647, § 1001(h) (3), 102 Stat. 3352.
8
  T.D. 7198, 37 FR 13683, July 13, 1972.
                                                                                                           Page 11
                Significant Challenges Exist in Determining Whether Taxpayers
                      With Schedule C Losses Are Engaged in Tax Abuse



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Lisa Stoy, Audit Manager
Carole Connolly, Lead Auditor
Timothy Greiner, Senior Auditor
Ted Lierl, Senior Auditor




                                                                                        Page 12
               Significant Challenges Exist in Determining Whether Taxpayers
                     With Schedule C Losses Are Engaged in Tax Abuse



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Services and Enforcement SE
Chief, Appeals AP
Chief Counsel CC
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S:CLD
       Chief, Appeals AP
       Chief Counsel CC




                                                                                    Page 13
                    Significant Challenges Exist in Determining Whether Taxpayers
                          With Schedule C Losses Are Engaged in Tax Abuse



                                                                                                   Appendix IV

          Methodology for Determining the Number of
             Taxpayers and Potential Tax Avoided
                      in Tax Year 2005

We used the following methodology to determine the number of taxpayers and potential tax
avoided in Tax Year 2005.
First, we obtained from the IRS Individual Return Transaction File1 a computer extract of Tax
Years 2002 – 2005 U.S. Individual Income Tax Returns (Form 1040) with an attached Profit or
Loss From Business (Schedule C) showing no profits, only losses, over the 4 consecutive Tax
Years. Our results identified 1,483,246 taxpayers that met this criterion.
We then calculated the additional taxes that would have been owed if taxpayers had not taken the
Schedule C losses in Tax Year 2005. This was accomplished by using each taxpayer’s filing
status for Tax Year 2005 and applying the appropriate tax rate.
Next, we added back the amount of the Schedule C loss to each taxpayer’s taxable income and
computed the tax. We then subtracted the tax computed on the amount including the Schedule C
loss from the tax computed by eliminating the Schedule C loss. This calculation provided the
amount considered to be the tax avoided in Tax Year 2005 by claiming the Schedule C loss.
The total potential tax avoidance for Tax Year 2005 is $2,843,919,493 for 1,203,175 taxpayers.
We determined 280,071 of the 1,483,246 taxpayers did not avoid any taxes by claiming a
Schedule C loss in Tax Year 2005.




1
  The Individual Return Transaction File contains data transcribed from initial input of the original individual tax
returns during return processing. Subsequent or amended return data are not contained in the File.
                                                                                                              Page 14
    Significant Challenges Exist in Determining Whether Taxpayers
          With Schedule C Losses Are Engaged in Tax Abuse



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 15
Significant Challenges Exist in Determining Whether Taxpayers
      With Schedule C Losses Are Engaged in Tax Abuse




                                                        Page 16
Significant Challenges Exist in Determining Whether Taxpayers
      With Schedule C Losses Are Engaged in Tax Abuse




                                                        Page 17
